No. _______________
--ooOoo-IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
--ooOoo-ARCHIE NED WILLIAMS, Petitioner
vs.
UNITED STATES OF AMERICA, Respondent
--ooOoo-ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
--ooOoo-MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
--ooOoo-ELIZABETH GARFINKLE
California Bar # 228536
Supreme Court Bar Member, since October 12, 2010
Law Office of Elizabeth Garfinkle
P.O. Box 13172
Oakland, California 94661
lizgarfinkle@gmail.com * (510) 501-0542
Counsel of Record for Petitioner,
Archie Ned Williams

1

TO THE HONORABLE CHIEF JUSTICE OF THE SUPREME COURT
OF THE UNITED STATES AND TO THE HONORABLE ASSOCIATE
JUSTICES OF THE COURT:
Pursuant to Rule 39 of the Rules of the Supreme Court of the United States,
Petitioner Archie Ned Williams respectfully requests leave to file a petition for writ
of certiorari in forma pauperis. Petitioner sought leave to file in forma pauperis in
the federal courts and it was granted. Petitioner was represented by appointed
counsel at all times, and he has been represented by the undersigned appointed
counsel in the Ninth Circuit Court of Appeals, under the Criminal Justice Act. 18
U.S.C. § 3006A(d)(7).
Copies of the notice and order of appointment are attached to this motion.
Dated: September 29, 2021

Respectfully submitted,

ELIZABETH GARFINKLE
Law Office of Elizabeth Garfinkle
P.O. Box 13172
Oakland, California 94661

lizgarfinkle@gmail.com
(510) 501-0542
Counsel of Record for Petitioner,
Archie Ned Williams

2

APPENDIX A
Notice and Order Appointing Counsel

3

Case: 18-10357, 09/25/2018, ID: 11024442, DktEntry: 4, Page 1 of 2

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

SEP 25 2018
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 18-10357
D.C. No. 4:17-cr-00077-YGR
Northern District of California,
Oakland

ARCHIE NED WILLIAMS,
ORDER
Defendant-Appellant.

Before: Peter L. Shaw, Appellate Commissioner.
The motion of appellant’s appointed counsel, Charles J.S. Woodson, Esq., to
be relieved as counsel of record and for appointment of new counsel (Docket Entry
No. 3) is granted. Counsel will be appointed by separate order.
The Clerk shall electronically serve this order on the appointing authority for
the Northern District of California, who will locate appointed counsel. The
appointing authority shall send notification of the name, address, and telephone
number of appointed counsel to the Clerk of this court at
counselappointments@ca9.uscourts.gov within 14 days of locating counsel.
Appellant shall designate the reporter’s transcript by November 1, 2018.
The transcript is due December 3, 2018. The opening brief and excerpts of record

Case: 18-10357, 09/25/2018, ID: 11024442, DktEntry: 4, Page 2 of 2

are due January 14, 2019; the answering brief is due February 13, 2019; and the
optional reply brief is due within 21 days after service of the answering brief.
The Clerk shall serve this order on former counsel and appellant individually
at PFN: UGO 470, Glenn Dyer Detention Facility, 550 6th Street, Oakland,
California 94607.

DL/AppComm Direct Criminal

2

